Report No. D-2009-065           March 26, 2009




          Navy Reporting of Financing
           Payments for Shipbuilding
          on the Financial Statements
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
BEIS                Business Enterprise Information System
CAMS-ME             Capital Asset Management System-Military
                       Equipment
CHOOSE              Cash History On-line Operator Search Engine
CIP                 Construction-in-Progress
DDRS                Defense Departmental Reporting System
FAC                 Financial Accounting Code
FMR                 Financial Management Regulation
IG                  Inspector General
NAVSEA              Naval Sea Systems Command
OUSD(C)/DoD CFO     Office of the Under Secretary of Defense
                       (Comptroller)/DoD Chief Financial Officer
P&EPO               Property and Equipment Policy Office
PP&E                Property, Plant, and Equipment
SFFAS               Statement of Federal Financial Accounting Standards
STARS               Standard Accounting and Reporting System
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON , VIRG INIA 22202- 4704                   March 26, 2009




MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/DOD CHIEF
                  FINANCIAL OFFICER
               DIRECTOR, ACQU[SITION RESOURCES AND ANALYSIS FOR
                 PROPERTY AND EQUIPMENT POLICY
               DIRECTOR, OFF[CE OF FINANCIAL OPERATIONS, ASS[STANT
                 SECRETARY OF THE NAVY (FINANCIAL MANAGEMENT
                 AND COMPTROLLER)
               DIRECTOR, ACQUISITION RESOURCES & ANALYS[S FOR
                  PROPERTY & EQUIPMENT POLICY
              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               NAVAL INSPECTOR GENERAL

SUBJECT: Navy Reporting of Financing Payments for Shipbuilding on the
         Financial Statements (Report No. 0-2009-065)


We are providing this final report for review and comment. The Acting Deputy Director,
Acquisition Resources and Analysis for Property and Equipment Policy; and the Director, Office of
Financial Operations, Assistant Secretary of the Navy (Financial Management and Comptroller) did
not provide comments on the draft report; however, we considered comments from the Office of the
Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer when preparing the final
report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The Acting Deputy
Chief Financial Officer' s comments were not responsive. [n addition, the Acting Deputy Director,
Acquisition Resources and Analysis for Property and Eq uipment Policy; and the Director, Office of
Financial Operations, Assistant Secretary ofthe Navy (Financial Management and Comptroller) did
not provide comments on the draft report. Therefore, we request additional comments by April 27,
2009.

Please provide comments that conform to the requirements of DoD Directive 7650.3. [fpossible,
send your comments in electronic format (Adobe Acrobat file only) to AUDCOLU@dodig.m il.
Copies of management comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the I Signed I symbol in place of the actual signature. If you
arrange to send classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SLPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601 -5868,
DSN (664-5868).


                                             ~a . f'!l~
                                             Patricia A. Marsh
                                             Assistant Inspector General
                                             Defense Business Operations
                   Report No. D-2009-065 (Project No. D2008-D000FJ-0177.000)
                                        March 26, 2009

                Results in Brief: Navy Reporting of Financing
                Payments for Shipbuilding on the Financial
                Statements
                                                         •   the Acting Deputy Director, Acquisition
 What We Did                                                 Resources and Analysis for Property and
 We determined whether the Defense Finance                   Equipment Policy; in conjunction with the
 and Accounting Service and the Department of                Director, Office of Financial Operations,
 the Navy properly reported contract financing               Assistant Secretary of the Navy (Financial
 payments for shipbuilding contracts on the DoD              Management and Comptroller); implement
 and Navy financial statements. In addition, we              controls that will ensure that there is a
 determined whether the Property and Equipment               complete and accurate shipbuilding CIP
 Policy Office (P&EPO) and the Navy could                    balance.
 improve the process to capture shipbuilding
 Construction-in-Progress (CIP) balances.
                                                         Management Comments and
                                                         Our Response
 What We Found                                           The Acting Deputy, Chief Financial Office
 •   For the eight classes of ships, the Navy            disagreed with the recommendations. The Acting
     improperly recorded approximately                   Deputy stated that contract financing payments
     $29 billion of shipbuilding payments as             are intangible assets and Federal accounting
     expenses instead of CIP on the                      standards require the payments to be recorded as
     March 31, 2008, financial statements                Advances. The Deputy’s comments were
     (finding A).                                        nonresponsive because Federal standards require
 •   Revised guidance from the Office of the             that the assets funded by contract financing
     Under Secretary of Defense                          payments be recorded in the CIP account. We did
     (Comptroller)/DoD Chief Financial Officer           not receive comments from the Acting Deputy
     conflicts with Federal accounting standards,        Director, Acquisition Resources and Analysis for
     and there is a high probability that the Navy       Property and Equipment Policy or the Director,
     will continue to misclassify shipbuilding           Office of Financial Operations, Assistant
     contract financing payments (finding A).            Secretary of the Navy (Financial Management and
 •   The P&EPO and Navy accounting and                   Comptroller). We request the current and newly
     valuation methodology resulted in an                appointed management provide comments in
     incomplete and inaccurate list of ships under       response to this final report. Please see the
     construction and inaccurate valuation of            recommendations table on the back of this page.
     those ships (finding B).
 •   The P&EPO and Navy internal controls
     were not adequate. We identified material
     internal control weaknesses in entering data
     into the Capital Asset Management System–
     Military Equipment and ensuring that the
     P&EPO CIP balance is accurate.
What We Recommend
We recommend that:
 • the Under Secretary of Defense
     (Comptroller)/DoD Chief Financial Officer
     revise guidance so that it complies with
     Federal accounting standards and does not           USS Ronald Reagan (CVN 76)
     create duplicate postings of shipbuilding
     contract financing payments and

                                                     i
               Report No. D-2009-065 (Project No. D2008-D000FJ-0177.000)
                                    March 26, 2009

Recommendations Table
Management                      Recommendations          No Additional Comments
                                Requiring Comment        Required
Under Secretary of Defense      A.1.a., A.1.b., A.1.c.
(Comptroller)/DoD Chief
Financial Officer
Acting Deputy Director,         B.1., B.2., B.3.
Acquisition Resources and
Analysis for Property and
Equipment Policy
Director, Office of Financial   A.2., B.1., B.2., B.3.
Operations, Assistant
Secretary of the Navy
(Financial Management and
Comptroller)

Please provide comments by April 27, 2009.




                                                   ii
Table of Contents
Results in Brief                                                                i

Introduction                                                                    1

       Objectives                                                              1
       Background                                                              1
       Review of Internal Controls                                             3


Finding A. Navy Presentation of Shipbuilding Construction Contract Financing
Payments on the Financial Statements                                            5

       Recommendations, Management Comments, and Our Response                   8

Finding B. Navy Tracking of Shipbuilding Contract Financing Payments
to Compile a Construction-in-Progress Balance                                  13

       Recommendations, Management Comments, and Our Response                  18


Appendix

           Scope and Methodology                                               21
           Use of Computer-Processed Data                                      21
           Prior Coverage                                                      22



Management Comments

       Under Secretary of Defense (Comptroller)                                23
Introduction
Objectives
We determined whether the Defense Finance and Accounting Service and the Navy
properly reported contract financing payments for shipbuilding contracts on the DoD and
Navy financial statements. In addition, we determined whether the Property and
Equipment Office (P&EPO) and the Navy could improve the process to capture
shipbuilding Construction-in-Progress (CIP) balances. See the Appendix for a discussion
of the scope and methodology and for prior coverage.

Background
The Naval Sea Systems Command (NAVSEA) is responsible for engineering, building,
buying, and maintaining ships, submarines, and combat systems to meet the Navy’s
current and future operational requirements. The Navy pays for construction of ships,
submarines, and combat systems primarily through the use contract financing payments.
Contract financing payments are payments made to contractors prior to acceptance of
supplies or services.

Navy Shipbuilding Contract Financing Payments
The Navy uses three types of payments for shipbuilding: progress, performance-based,
and interim payments on cost-reimbursement contracts. Progress payments are contract
financing payments based on the contractor costs or percentage of completion.
Performance-based payments are based on objective, quantifiable methods; such as
accomplishing defined goals. The Navy should issue interim payments on cost-
reimbursement contracts when uncertainties involved in the price of the contract do not
permit the cost of the contract to be accurately estimated.

As of March 31, 2008, the Navy was constructing 31 ships in 8 different classes of ships.
See Table 1 for specific ships.




                                            1
                           Table 1. Ships Under Construction
Class        Name                     Number         Type of Financing
CVN 68       George H. W. Bush        CVN 77         Progress Payment for cost and performance
CVN 68       Gerald R. Ford           CVN 78         Interim Payments for Cost Contract
DDG 51       Truxtun                  DDG 103        Progress Payment for cost and performance
DDG 51       Dewey                    DDG 105        Progress Payment for cost and performance
DDG 51       Stockdale                DDG 106        Progress Payment for cost and performance
DDG 51       Gravely                  DDG 107        Progress Payment for cost and performance
DDG 51       Wayne E. Meyer           DDG 108        Progress Payment for cost and performance
DDG 51       Jason Dunham             DDG 109        Progress Payment for cost and performance
DDG 51       William P. Lawrence DDG 110             Progress Payment for cost and performance
DDG 51       Spruance                 DDG 111        Progress Payment for cost and performance
DDG 51       Unnamed*                 DDG 112        Progress Payment for cost and performance
SSN 774 New Hampshire                 SSN 778        Progress Payment for cost and performance
SSN 774 New Mexico                    SSN 779        Progress Payment for cost and performance
SSN 774 Missouri                      SSN 780        Progress Payment for cost and performance
SSN 774 California                    SSN 781        Progress Payment for cost and performance
SSN 774 Mississippi                   SSN 782        Progress Payment for cost and performance
SSN 774 Unnamed*                      SSN 783        Progress Payment for cost and performance
LHD 1        Makin Island             LHD 8          Progress Payment for cost and performance
LPD 17       Green Bay                LPD 20         Progress Payment for cost and performance
LPD 17       New York                 LPD 21         Interim Payments for Cost Contract
LPD 17       San Diego                LPD 22         Progress Payment for cost and performance
LPD 17       Anchorage                LPD 23         Progress Payment for cost and performance
LPD 17       Arlington                LPD 24         Progress Payment for cost and performance
LPD 17       Somerset                 LPD 25         Progress Payment for cost and performance
AKE 1        Robert E. Peary          AKE 5          Progress Payment for cost and performance
AKE 1        Amelia Earhart           AKE 6          Progress Payment for cost and performance
AKE 1        Carl Brashear            AKE 7          Progress Payment for cost and performance
AKE 1        Wally Schirra            AKE 8          Progress Payment for cost and performance
LCS 1        Freedom                  LCS 1          Interim Payments for Cost Contract
LCS 1        Independence             LCS 2          Interim Payments for Cost Contract
T-AGM        Unnamed*                 T-AGM 25 Performance Based Payments
 * At the time of the audit, these ships had not been assigned a name

Navy Balance Sheet Scope
The Navy reported $187 billion in General Property, Plant, and Equipment (PP&E) on
the March 31, 2008, General Fund financial statements, which included $169 billion in
Military Equipment and $3.1 billion in CIP.

The Navy also reported $7.6 billon in Total Other Assets on the March 31, 2008, General
Fund financial statements, which included $6.9 billion in outstanding contract financing
payments.




                                               2
Property and Equipment Policy Office
The P&EPO is a Component of the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics. The P&EPO is responsible for developing
solutions to allow DoD Components to comply with Federal financial accounting
standards as they relate to military equipment, as well as resolving existing accounting
and reporting problems for military and general purpose equipment.

The P&EPO compiles and maintains a spreadsheet of the Navy shipbuilding CIP balance.
Statement of Federal Financial Accounting Standards (SFFAS) No. 6, “Accounting for
Property, Plant and Equipment,” uses the term “construction work in process” but the
United States Standard General Ledger uses the CIP.” We will use CIP to be consistent
with the DoD presentation.


Review of Internal Controls
We identified material internal control weaknesses at the P&EPO and the Navy as
defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
Procedures,” January 4, 2006. The P&EPO and Navy did not have adequate controls in
place for entering data into the Capital Asset Management System-Military Equipment
(CAMS-ME) and ensuring that the P&EPO CIP balance is accurate. There was no
guidance or training on how or when to update CAMS-ME.

Implementing Recommendations B.1., B.2., and B.3. will improve the P&EPO and Navy
internal control procedures and result in improved reporting of the shipbuilding CIP
ending balance. We will provide a copy of this report to the senior official responsible
for internal controls at P&EPO and Navy.




                                             3
4
Finding A. Navy Presentation of
Shipbuilding Construction Contract
Financing Payments on the Financial
Statements
The Navy improperly classified shipbuilding contract financing payments as expenses
rather than Construction-in-Progress (CIP) on its March 31, 2008, financial statements.
The misclassification occurred because the Navy followed guidance published in DoD
Regulation 7000.14-R, “DoD Financial Management Regulation,” that did not provide
accurate policy for recording the assets that contractors constructed. The Navy
misstatement of potentially $29 billion of shipbuilding financing payments was material
to the Balance Sheet. As a result, the Navy understated the CIP account by potentially
$29 billion and overstated previously reported expenses on the Statement of Net Cost by
the same amount. To improve the quality and reliability of the Navy’s reported
shipbuilding costs for use by decision makers, the Office of the Under Secretary of
Defense (DoD Comptroller)/DoD Chief Financial Officer (OUSD[C]/DoD CFO) needs
to revise the DoD 7000.14-R to comply with Federal accounting standards.

Navy Presentation of Shipbuilding Contract Financing
Payments
The Navy did not present shipbuilding contract financing payments in accordance with
Federal accounting standards. Specifically, in its March 31, 2008, financial statements,
the Navy improperly reported shipbuilding contract financing payments as expenses on
the Statement of Net Cost instead of properly reporting the payments as CIP on the
Property, Plant, and Equipment (PP&E) line item on the Balance Sheet.

The Statement of Federal Financial Accounting Standards (SFFAS) No. 6, “Accounting
for Property, Plant and Equipment,” June 1996 states that for constructed PP&E, the
PP&E must be recorded as CIP until it is placed in service, then the balance must be
transferred to the General PP&E account. SFFAS No. 6 states that PP&E shall be
recognized when title passes to the acquiring entity or when the PP&E is delivered to the
entity or to an agent of the entity. Title of ships under construction as well as vessel
materials delivered to the contractor vest in the Navy.

To comply with Government accounting standards, the Navy must present the contract
financing payments for ship construction as PP&E CIP. However, the Navy reported the
majority of the shipbuilding payments as an expense in the accounting period in which it
made the payment.

The Office of the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer Guidance
The Navy improperly presented shipbuilding construction contract financing payments
on the March 31, 2008, financial statements because the OUSD(C)/DoD CFO issued
guidance related to the presentation of contracting financing payments that conflicted
with SFFAS No. 6. Specifically, DoD 7000.14-R volume 4, chapter 6, “Property, Plant
and Equipment,” July 2006; its June 2008 revision; and volume 6b, chapter 4, “Balance
Sheet,” January 2006, contained presentation instructions that conflicted with SFFAS


                                            5
No. 6. Further, if the Navy follows the OUSD(C)/DoD CFO revision to DoD 7000.14-R
volume 4, chapter 5, “Advances and Prepayments,” October 2008, the Navy will continue
to present shipbuilding construction contract financing payments in a way that is not
compliant with SFFAS.

DoD 7000.14-R Guidance Applicable to March 2008 Reporting
DoD 7000.14-R contained guidance on real property reporting that conflicted with
SFFAS No. 6. Prior to June 2008, DoD 7000.14-R volume 4, chapter 6 stated that real
property should be reported in the CIP account. The guidance did not mention anything
else that could be reported in the CIP account. However, SFFAS No. 6 specifically states
that entities should record constructed PP&E in the CIP account. It does not state that
entities should record only real property PP&E in the CIP account. Because the Navy
followed the July 2006 DoD 7000.14-R guidance, the Navy did not report shipbuilding
construction contract financing payments in the Navy CIP account on its March 31, 2008,
Balance Sheet. Because OUSD(C)/DoD CFO changed this guidance during the course of
the audit, we are not making specific recommendations to address the conflict with the
SFFAS.

Additionally, the DoD 7000.14-R contained conflicting guidance as to which account the
Navy could use to report the shipbuilding contract financing payments on the Balance
Sheet. DoD 7000.14-R volume 6b, chapter 4 states that contract financing payments
made to contractors under fixed-price contracts should be reported as Other Assets.
However, volume 6b, chapter 4 specifically excludes progress payments based on a
percentage of completion from the Other Asset account and requires that those payments
to be reported as CIP.

DoD 7000.14-R volume 6b, chapter 4 prohibits the Navy from reporting the shipbuilding
contract financing payments in the only other Balance Sheet account that could be
applicable: Other Assets. Specifically, the majority of Navy shipbuilding contract
financing payments are made either on cost reimbursement contracts or progress
payments based on a percentage of completion or cost. The OUSD(C)/DoD CFO
specifically excludes those types of contract financing methods from its guidance for the
Other Asset line item and the CIP line item. The OUSD(C)/DoD CFO needs to revise
this section to include cost reimbursement contracts and progress payments based on a
percentage of completion or cost.

Revised DoD 7000.14-R Guidance
The revised DoD 7000.14-R guidance related to shipbuilding construction payments
issued by the OUSD(C)/DoD CFO during the course of the audit still conflicts with
Federal accounting standards and other DoD guidance.

Specifically, if the Navy follows the new DoD 7000.14-R volume 4, chapters 5 and 6
guidance, it will result in the Navy double posting shipbuilding contract financing
payments. In addition, the new DoD 7000.14-R guidance improperly directs entities to
report contract financing payments as advances and prepayments and to classify them as
intangible assets. As previously noted, shipbuilding construction contract financing
payments should be presented as PP&E CIP. Presenting these payments as advances and
prepayments or intangible assets is not in accordance with SFFAS No. 6. Unless
OUSD(C)/DoD CFO makes further revision to its guidance, the Navy will be unable to
properly present shipbuilding contract financing payments.




                                            6
Possible Duplicate Posting of Shipbuilding Construction Contract
Financing Payments
If the Navy follows the new DoD 7000.14-R, it will result in the Navy double posting
shipbuilding contract financing payments. Specifically, DoD 7000.14-R volume 4,
chapter 6 states that the CIP account is used for only real property assets and
shipbuilding. It also states that entities should present contract financing payments in the
advances and prepayments account until the entity receives the goods or services.
DoD 7000.14-R, volume 4, chapter 5 includes the same requirement for presenting
shipbuilding contract financing payments as advances and prepayments.

The new DoD 7000.14-R guidance provides two possible accounts to present the same
shipbuilding contract financing payments. The Navy could report shipbuilding contract
financing payments in both the CIP and the advances and prepayments accounts. The
OUSD(C)/DoD CFO needs to remove the wording that requires shipbuilding contract
financing payments to be recorded as advances and prepayments to avoid overstating the
Balance Sheet. Then the guidance will agree with Federal accounting standards.

Contract Financing Payments as Advances and Prepayments
The new DoD 7000.14-R improperly directs entities to present all contract financing
payments as advances and prepayments. Specifically, DoD 7000.14-R volume 4,
chapters 5 and 6 state that contract financing payments are cash disbursements made to a
contractor to finance performance under the contract prior to acceptance of goods or
services. Chapters 5 and 6 also state that the entities should record the cash
disbursements in the advances and prepayments account until the entity receives the
goods or services.

SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” March 30, 1993,
provides a definition of advances and examples for its use. SFFAS No. 1 states that
advances are cash payments to cover a part or all of anticipated expenses or as advance
payments for the cost of goods and services the entity acquires. Examples include travel
advances disbursed to employees prior to business trips and cash or other assets disbursed
under a contract, grant, or cooperative agreement before goods or services are provided
by the contractor or grantee. SFFAS No. 1 also defines prepayments as payments made
to cover certain periodic expenses before those expenses are incurred and excludes
progress payments made to a contractor based on a percentage of completion of the
contract from advances and prepayments.

Contract financing payments do not meet the definition of advances because the
Government is providing payment for work either already performed by the contractor or
for actual expenditures the contractor has made. Contract financing payments are not for
anticipated expenses but instead fund work that is ongoing and progressing. Contract
financing payments are also not prepayments because they are paid after expenses are
incurred, not before.

OUSD(C)/DoD CFO needs to remove guidance that requires entities to present contract
financing payments as advances and prepayments to ensure that entities are not reporting
contract financing payments in conflict with Federal accounting standards.
Contract Financing as Intangible Assets
The new DoD 7000.14-R inappropriately defines contract financing payments as
intangible assets. DoD 7000.14-R volume 4, chapters 5 and 6 state that contract
financing payments do not represent a tangible PP&E asset to the DoD Component.
According to generally accepted accounting principles, there are two types of assets:


                                             7
tangible and intangible. Because the new 7000.14-R states that contract financing
payments are not tangible assets, it is asserting that they are intangible assets. However,
contract financing payments are not intangible assets. Intangible assets are generally
defined as noncurrent resources that do not have physical substance. They usually have a
high degree of uncertainty concerning their future benefits. They include patents,
copyrights, franchises, goodwill, trademarks, trade names, and secret processes. They are
amortized as opposed to depreciated. The assets acquired through contract financing
payments do not include such assets or benefits.

OUSD(C)/DoD CFO needs to remove the sections in DoD 7000.14-R volume 4,
chapters 5 and 6 that state that contract financing payments are intangible assets.

Conclusion
As a result of the Navy following DoD 7000.14-R policies, it incorrectly posted
shipbuilding contract financing payments as expenses and misclassified potentially
$29 billion of shipbuilding construction financing payments. Specifically, the Navy CIP
balance was understated by at least $29 billion and the Statement of Net Cost was
overstated from FY 1999 through March 2008.

The potential $29 billion misclassification of assets as expenses is material to the Navy
General Fund Balance Sheet. Specifically, the P&EPO and Navy exclusion of the
shipbuilding contract financing payments represents 16 percent of the total Navy General
PP&E account. Additionally, the $29 billion represents 17 percent of the Navy Military
Equipment balance and 774 percent of the Navy CIP balance.

DoD 7000.14-R volume 4, chapter 6 requires that the Navy report shipbuilding in the CIP
account. Additionally, other sections of the DoD 7000.14-R require DoD entities to
report contract financing in other accounts. Therefore, the OUSD(C)/DoD CFO needs to
remove the sections of the DoD 7000.14-R that require the Navy to report shipbuilding
contract financing payments in accounts other than CIP. The recommendations, if
implemented, will remove the inconsistencies and noncompliant reporting requirements
of the DoD 7000.14-R.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that Office of the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer revise the DoD 7000.14-R, “DoD
Financial Management Regulation,” to comply with the Federal accounting
standards for reporting shipbuilding contract financing payments. Specifically:

      a. Remove the sections in DoD 7000.14-R, “DoD Financial Management
Regulation,” volume 4, chapter 5, “Advances and Prepayments,” October 2008 and
volume 4, chapter 6, “Property, Plant and Equipment,” June 2008, which state that
contract financing payments should be recorded as advances and prepayments.

Management Comments
The Acting Deputy, Chief Financial Officer disagreed with the recommendation. The
Acting Deputy stated the contract financing interim payments meet the definition of
advances in paragraph 57 of SFFAS No. 1. He further stated the U.S. Standard General
Ledger requires that advances be reported in Account 1410, “Advances and
Prepayments.” He also stated this account is prescribed for “Payments made in


                                             8
contemplation of the future performance of services, receipt of goods, incurrence of
expenditures, or receipt of other assets.”

The Acting Deputy stated the contract financing interim payments do not yet meet the
definition of PP&E as established by SFFAS No. 6. He stated that classification of these
cash disbursements as PP&E prior to acceptance of the assets would imply that the
Department has acquired tangible assets as of the date of the financial statements. He
also stated this presentation would mislead financial statement users as to the property
owned, managed, and controlled by the Department and reduce the clarity of the financial
statement information reported.

Our Response
The Acting Deputy’s comments were nonresponsive. The Acting Deputy’s statement
provided criteria for presenting CIP and PP&E that are not Federal accounting standards.
Additionally, the Acting Deputy’s comments did not include a proposed resolution for
discussing the Navy’s potential double posting shipbuilding contract financing payments
if he does not change the wording in DoD 7000.14-R, volume 4, chapter 5.

Specifically, the Acting Deputy’s statement that contract financing payments meet the
SFFAS No.1 definition of advances is not accurate. SFFAS No. 1 states that advances
are cash payments to cover a part or all of anticipated expenses or as advance payments
for the cost of goods and services the entity acquires. As stated in the report,
shipbuilding contract financing payments do not meet the SFFAS No. 1 definition of
advances because the Government is providing the contract financing payments for either
work performed or actual expenditures the contractor has incurred (as opposed to
anticipated expenses).

Furthermore, the Acting Deputy’s statement that contract financing payments should not
be recorded in CIP because acceptance has not yet occurred on the final asset is not based
on Federal accounting standards. Specifically, SFFAS No. 6 states that PP&E shall be
recognized when the title passes to the Government and does not mention acceptance as a
requirement. The Government takes title to the work-in-process asset either when the
contract is signed or the first contract financing payment is made. Therefore, the
shipbuilding contract financing payments represent the work-in-process and should be
recorded in the PP&E subaccount CIP.

In addition, the Acting Deputy’s statement that presenting the contract financing
payments for PP&E assets in CIP would mislead financial statement users as to the
property owned, managed, and controlled by the Department is lacking in support from
the Federal accounting standards. Specifically, the SFFAS No. 6 definition of PP&E
does not state that the entity must own, manage, and control the PP&E before it records
the asset as PP&E. As previously discussed, SFFAS No. 6 states only that title shall pass
to the entity in order to record it as PP&E. Therefore, users of the financial statement
would not be misled and assume that all property reported on the financial statements are
owned, managed, and controlled by the Department because that is not the criteria for
reporting PP&E.

The Acting Deputy did not comment on the two sections of the DoD 7000.14-R that
provide conflicting guidance for shipbuilding financing payments. Specifically, DoD
7000.14-R volume 4, chapter 6 states that CIP accounts are only utilized for construction
of real property and shipbuilding while volume 4, chapter 5 directs that contract financing
payments be reported as advances. If the Deputy does not remove the requirement that



                                            9
entities report contract financing payments as advances, contract financing payments for
shipbuilding could be reported in CIP and Advances.

We request that the Deputy Chief Financial Officer, Office of the Under Secretary of
Defense (Comptroller)/DoD Chief Financial Office reconsider and provide additional
comments in response to the final report.

      b. Remove the sections in DoD 7000.14-R, “DoD Financial Management
Regulation,” volume 4, chapter 5, “Advances and Prepayments,” October 2008 and
volume 4, chapter 6, “Property, Plant and Equipment,” June 2008, which state that
contract financing payments are not tangible assets.

Management Comments
The Acting Deputy, Chief Financial Officer disagreed with the recommendation. The
Acting Deputy stated that SFFAS No. 6 specifically defines PP&E as “tangible assets.”
He also stated that accounting literature defines “tangible” as “having physical
substance.” The Acting Deputy stated that advances are payments made in anticipation
of future performance by the contractor, including future delivery of tangible assets. He
further stated that contract financing payments made to contractors do not have physical
substance and are not tangible assets, thus these payments are not recognized as PP&E.

Our Response
The comments from the Acting Deputy were nonresponsive. We agree that SFFAS No. 6
does state that PP&E are tangible assets and we firmly believe that shipbuilding contract
financing payments meet that definition. Shipbuilding contract financing payments
represent expenditures for the tangible work-in-process assets completed by the
contractor. Therefore, the statement that contract financing payments are not tangible
assets is inaccurate.

As stated in our report, intangible assets are generally defined as noncurrent resources
that do not have physical substance. Intangible assets usually have a degree of
uncertainty concerning their future benefit. They include patents, copyrights, franchises,
goodwill, trademarks, trade names, and secret processes. The shipbuilding assets that the
contractor produces have a certain future benefit to DoD as part of the Navy fleet ships
and are not intangible assets.
We request that the Deputy Chief Financial Officer, Office of the Under Secretary of
Defense (Comptroller)/DoD Chief Financial Officer reconsider and provide additional
comments in response to the final report.

       c. Remove the section in DoD 7000.14-R, “DoD Financial Management
Regulation,” volume 6b, chapter 4, “Balance Sheet,” January 2006, which states
that contract financing payments (excluding progress payments based on a
percentage of completion) for fixed-price contracts be reported in the Other Asset
account.

Management Comments
The Acting Deputy, Chief Financial Officer disagreed with the recommendation. The
Acting Deputy stated that the USSGL requires that advances be reported in USSGL
Account 1410. He also stated that in the established crosswalks, Account 1410 is
presented as Other Assets on the Balance Sheet. The Acting Deputy stated that Office of
Management and Budget Circular A-136, “Financial Reporting Requirements,” Revised


                                            10
June 3, 2008, confirms this presentation. He also stated that the DoD 7000.14-R is
consistent with the Department’s accounting treatment of contract financing payments.

Our Response
The comments from the Acting Deputy Chief Financial Officer were nonresponsive. As
mentioned in the finding section and our audit response for Recommendation A.1.a,
contract financing payments do not meet the SFFAS definition of advances.
Furthermore, the Navy did not report contract financing payments for shipbuilding as
advances as directed by the DoD 7000.14-R. The Navy was expensing contract financing
payments for shipbuilding as of March 31, 2008. We disagree that contract financing
payments should be reported as advances. We agree with the Acting Deputy’s comments
that the USSGL requires that advances be reported in the USSGL Account 1410, which is
subsequently crosswalked to Other Assets.

The Acting Deputy did not comment on the existence of conflicting guidance for
shipbuilding financing payments. DoD 7000.14-R volume 6b, chapter 4 requires that
contract financing payments be reported as Other Assets while volume 4, chapter 6 states
that CIP accounts are utilized for construction of real property and shipbuilding. If the
Acting Deputy does not remove the requirement that entities report contract financing
payments as Other Assets, there is a potential that contract financing payments for
shipbuilding will be reported in both the CIP and Other Assets accounts.

We request that the Deputy Chief Financial Officer, Office of the Under Secretary of
Defense (Comptroller)/DoD Chief Financial Officer reconsider and provide additional
comments in response to the final report.

A.2. We recommend that the Director, Office of Financial Operations, Assistant
Secretary of the Navy (Financial Management and Comptroller), upon completion
of Recommendation B, determine the financial statement effect of the
misclassification of shipbuilding financing payments as expenses and consider
making a prior period adjustment or other appropriate disclosure.

Management Comments
The Director, Office of Financial Operations, Assistant Secretary of the Navy (Financial
Management and Comptroller) did not provide comments on the recommendation. We
request that he provide comments in response to the final report.




                                           11
12
Finding B. Navy Tracking of Shipbuilding
Contract Financing Payments to Compile a
Construction-in-Progress Balance
The P&EPO and the Navy methodology for compiling shipbuilding CIP did not result in
complete and accurate information. Using the current methodology, the Navy:

    •    did not include a reconciliation of the ending balance to source transactions;
    •    did not include a complete list of all ships under construction;
    •    included complete ships that were no longer under construction; and
    •    did not correctly value the ships it did include.

Without improving the methodology, the P&EPO and the Navy cannot assert that the
shipbuilding CIP is audit-ready and free from material misstatement. To accurately value
shipbuilding assets, the P&EPO and the Navy need to implement controls to ensure that
the Navy reconciles the ending CIP balance to source documentation, captures
information on all ships under construction, and identifies all CIP transactions that should
be included.

Revised Shipbuilding Guidance
During the audit, the OUSD(C)/DoD CFO issued new guidance requiring the Navy to
report shipbuilding in its CIP balance. The P&EPO had compiled these CIP balances as
of March 31, 2008 but the Navy did not post the amounts to its CIP account. Prior
OUSD(C)/DoD CFO guidance did not specifically address shipbuilding contract
financing payments. The Navy stated that it planned to use the current shipbuilding CIP
compilation process to comply with the new OUSD(C)/DoD CFO policy. Therefore, we
reviewed the P&EPO methodology for compiling the March 31, 2008, balances to
determine whether the P&EPO compiled an accurate and auditable shipbuilding CIP
balance.
Shipbuilding CIP Process
The Navy works with the P&EPO to identify the Financial Accounting Code (FAC),
which enables the P&EPO to identify the CIP payments. The FAC is composed of the
appropriation, beginning fiscal year of the appropriation, subhead, and project unit (also
known as the Unique Identification Code).

Once the P&EPO and the Navy identified the FACs, they input them into the Capital
Asset Management System-Military Equipment (CAMS-ME). CAMS-ME then
interfaced with Business Enterprise Information System (BEIS) to obtain summary
shipbuilding expenditure information using those FACs.* The P&EPO used the summary
expenditure data to record the ending shipbuilding CIP balances on a spreadsheet. The
Navy plans to post the amounts recorded on the spreadsheet to the CIP account. See the
following flow chart for a summary of the shipbuilding CIP reporting process.



*
 BEIS is populated from the Navy Financial Accounting System (Standard Accounting and Reporting
System [STARS]).



                                                13
                           Shipbuilding CIP Reporting Process

           Start


      Navy makes
      disbursement             Navy/P&EPO identify ships
                                 under construction and
                                    associated FACs

      Navy Accounting
      System (STARS)
                                                                     Key:

                                                                     Department

         BEIS                       CAMS-ME
                                                                      System



                                                                     Manual Input
         Finish                P&EPO records ending
                                CIP balances per ship




Auditability of P&EPO Shipbuilding CIP Balances
The P&EPO and the Navy’s shipbuilding CIP ending balance was not auditable. The
P&EPO obtained summary expenditure data and did not include any detailed records that
supported the summary amounts. The P&EPO and the Navy could not provide detailed
transactions that agreed with the ending balances that the P&EPO reported.

We attempted to duplicate the P&EPO results by using its methodology for obtaining the
CIP balances. We used the FACs provided by the P&EPO to gather all related
disbursements from the Navy’s disbursement query program. We then summarized the
detailed transactions by ship and compared the summary amount to the P&EPO summary
CIP balances. Out of the 25 ships the P&EPO correctly identified as having CIP
balances, we found differences among the reported value and our derived value, ranging
from 2.8 percent to 689.3 percent. As a result, the current ending balances are not
auditable. Table 2 compares the P&EPO compiled ending CIP balances to the auditor-
derived balances using the same P&EPO FACs entered into CAMS-ME.




                                         14
    Table 2. Comparison of P&EPO Summary Balances and Detailed Transactions

                                                        Absolute Difference
                                                            of P&EPO
              P&EPO Summary         Auditor-Derived                              Percent
Program                                                   Summary and
                CIP Balance            Balances                                 Difference
                                                           Detailed CIP
                                                             Balances
CVN 77          $ 4,274,369,118      $ 4,835,239,945         $ 560,870,827             13.1
CVN 78            3,223,265,044        2,853,853,213           369,411,831             11.5
SSN 778           1,458,210,216        1,793,457,132           335,246,916             23.0
SSN 779           1,528,031,978        1,711,936,887           183,904,909             12.0
SSN 780           1,465,362,505        1,331,113,372           134,249,133              9.2
SSN 781           1,430,182,798        1,107,413,027           322,769,771             22.6
 LPD 20             770,878,798        1,027,141,839           256,263,041             33.2
 LPD 21             665,648,201        1,042,847,160           377,198,959             56.7
 LPD 22             723,514,335          668,614,621            54,899,714              7.6
 LPD 23             548,112,085          410,578,139           137,533,946             25.1
 LPD 24             619,218,396          363,916,922          255,301,475*             41.2
 AKE 5              567,284,015          303,377,271           263,906,744             46.5
 AKE 6              480,121,798          257,324,120           222,797,678             46.4
 AKE 7              434,021,567          228,024,021           205,997,546             47.5
 AKE 8              192,866,142          105,190,976            87,675,166             45.5
DDG 103             429,759,790          591,155,530           161,395,740             37.6
DDG 105             425,581,505          474,520,283            48,938,778             11.5
DDG 106             744,664,897        1,284,570,806           539,905,909             72.5
DDG 107               7,981,793           63,003,184            55,021,391            689.3
DDG 108              52,455,250           53,899,904             1,444,654              2.8
DDG 109                 561,152            2,081,614             1,520,462            271.0
DDG 111              11,806,564           22,237,991            10,431,427             88.4
 LHD 8            1,319,934,936        1,774,663,429           454,728,493             34.5
  LCS             1,014,888,394          716,164,449           298,723,945             29.4
  Total       $ 22,388,721,277     $ 23,022,325,833*       $ 5,340,138,454


The difference between the ending CIP balances reported by the P&EPO and the auditor-
derived ending CIP balance is $634 million, but there is an absolute difference of
$5.3 billion between the ending CIP balances. The $5.3 billion represents a material
understatement of 24 percent in the ending CIP balance compiled by the P&EPO.

DoD Inspector General (IG) Report No. D-2009-008, “Internal Controls Over the
Department of the Navy Military Equipment Baseline Valuation Effort,”
October 31, 2008, identified that the P&EPO and the Navy did not accurately calculate
program acquisition values for the Military Equipment Baseline. That audit discusses the
same military equipment valuation issue that we found with the ending shipbuilding CIP
balances. The Navy concurred with the audit finding and stated that it has a plan that will


*
    Mathematical differences are due to rounding.


                                             15
allow it to reconcile military equipment expenditures (in BEIS) with disbursements.
Because the DoD IG has already identified this weakness for the Military Equipment
balance and the Navy is taking corrective actions, we are not making further
recommendations.

Accuracy of P&EPO Shipbuilding CIP Balances
Although the Navy lacked detailed transactions to support the P&EPO ending CIP
balances, we performed tests using P&EPO FACs entered in CAMS-ME to determine
whether the P&EPO methodology would result in accurate ending CIP balances. Based
on our analysis, the current P&EPO methodology resulted in inaccurate ending CIP
balances. Specifically, the P&EPO CIP balance excluded CIP for ships currently under
construction, included CIP for other ships not under construction, and inaccurately valued
CIP for the remaining ships under construction.

Ships under Construction and Ships Not Under Construction
The P&EPO and the Navy methodology inaccurately identified ships under construction
as of March 31, 2008. Although the P&EPO and the Navy correctly identified 25 of the
31 ships under construction, they incorrectly excluded 6 ships that were under
construction and included 4 ships that were no longer under construction.

The six ships under construction that the P&EPO and the Navy excluded as of
March 31, 2008, had CIP balances totaling $2.2 billion. The NAVSEA program offices
confirmed that each of these ships was under construction as of March 31, 2008.
Therefore, the P&EPO needed to include disbursements for these ships in the ending CIP
balance. Table 3 lists the ships that P&EPO and the Navy should have included in their
ending CIP balances as of March 31, 2008.

             Table 3. Ships Excluded from the March 31, 2008, P&EPO
                                   CIP Balances
                       Ship      Balance of Disbursements for
                      Number       Ships as of March 31, 2008
                     DDG 112                    $ 824,237,781
                     DDG 110                         281,235,267
                      SSN 783                        530,149,246
                      SSN 782                        417,401,398
                      LPD 25                         156,202,682
                      T-AGM                                9,881
                        Total                    $ 2,209,236,255
In addition to the six ships improperly excluded from the March 31, 2008, ending CIP
balance, the P&EPO and the Navy reported CIP balances totaling $2 billion for four ships
that should not have been included. The four ships were not under construction as of
March 31, 2008. Specifically, the contractor delivered DDG 104 and ARS 52 prior to
March 31, 2008, and the contractor had not begun construction on DDG 1000 and
DDG 1001 as of March 31, 2008. Table 4 lists the ships that the P&EPO inaccurately
included in the ending CIP balance.




                                           16
          Table 4. Ships Inaccurately Included in the March 31, 2008, P&EPO
                                          CIP Balances
                                        March  31, 2008, Summary
                       Ship Number         P&EPO CIP Balance
                             DDG 104                        $    778,247,177
                             DDG 1000                            568,997,377
                             DDG 1001                            645,976,724
                              ARS 52                              54,786,633
                               Total                         $ 2,048,007,911

Neither the P&EPO nor the Navy could explain why these ships were included in the
ending CIP balance. The P&EPO and the Navy did not have an office responsible for
consistently tracking shipbuilding. One office should be responsible for developing and
implementing procedures to ensure that it tracks ships under construction and excludes
ships not under construction. Until there are accurate and up-to-date records of the ships
under construction, the P&EPO and the Navy will continue to misstate the ending
shipbuilding CIP balances.

Valuation
For the 25 ships that the P&EPO and the Navy correctly identified as having CIP
balances as of March 31, 2008, the P&EPO calculated inaccurate ending CIP balances for
21 of those ships. Specifically, the P&EPO used only the FACs entered in CAMS-ME,
which resulted in inaccurate Navy shipbuilding CIP balances for 21 of the 25 ships under
construction as of March 31, 2008.*

The P&EPO methodology potentially excluded $3.9 billion of disbursements that should
have been included in the CIP balance. The P&EPO and Navy excluded the $3.9 billion
because they did not enter all required FACs into CAMS-ME. Because the P&EPO and
the Navy did not include all FACS, the P&EPO and the Navy potentially understated the
ending balance of CIP by $3.9 billion for the ships under construction, which is
17 percent of the $23 billion reported as ending CIP.

Of the $3.9 billion the P&EPO and the Navy excluded from the ending CIP balance,
$2.9 billion represented disbursements on the hull of the ship and $1 billion was for
everything else that goes on the ship. We researched $2.2 billion of the $2.9 billion
related to the prime contracts and concluded that those amounts represented purchases for
items that should have been valued in the ending CIP balances. The $1 billion of non-
prime contract disbursements had the same FACs as the excluded prime contracts
disbursements. Therefore, the $1 billion would have been included in the ending CIP
balance if P&EPO and the Navy FACs had entered them into CAMS-ME. Table 5 shows
the amount of excluded CIP balances per class of ship.




*
    The P&EPO methodology reported the SSN class of ships accurately. These were valued correctly.


                                                    17
                    Table 5. Understatement of Ending CIP Balances
                                       (in millions)
                     Auditor-Derived        P&EPO           Mis-     Percent
           Class       Ending CIP        Methodology     Statement  Difference
                          Balance
          CVN 68              $8,136.0           7,689.1      446.9       5.8%
          SSN 74               5,989.0           5,943.9       45.1         0.8
          LPD 17               3,990.5           3,513.1      477.4        13.6
          AKE 1                  968.5             893.9       74.5         8.3
          DDG 51               4,683.1           2,491.5    2,191.6        88.0
           LHD1                2,038.2           1,774.7      263.5        14.8
           LCS 1               1,127.8             716.2      411.6        57.5
           Total             26,933.0*       23,022.3*     3,910.7*        17.0
The P&EPO and the Navy could not provide an explanation for why the FACs were not
entered into CAMS-ME. Until P&EPO and the Navy implement controls to research and
identify all FACs that should be valued in the ending CIP balances, the Navy CIP
balances will continue to be undervalued.

Conclusion
Because we were not able to duplicate the P&EPO CIP account balance and the Navy
was unable to provide detailed support for those balances, P&EPO and the Navy could
not provide an auditable CIP balance. The Navy has stated that it has a plan that will
eventually allow it to reconcile military equipment expenditures with disbursements and
correct the problem. However, even if that problem is corrected and the Navy can ensure
that the summary CIP ending balances are supported by detailed disbursement data, the
current P&EPO methodology will still result in an inaccurate CIP ending balance because
it excludes ships under construction, includes ships that are not under construction, and
understates the remaining ships under construction.

These control issues are material to the March 31, 2008, CIP ending balance and will
continue to result in inaccurate Navy shipbuilding CIP amounts. The P&EPO and the
Navy need to implement controls to ensure that these weaknesses are corrected. The
Navy needs to ensure it includes all payments that should be capitalized.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Acting Deputy Director, Acquisition Resources and
Analysis for Property and Equipment Policy, in conjunction with the Director,
Office of Financial Operations, Assistant Secretary of the Navy (Financial
Management and Comptroller) implement controls over the shipbuilding
Construction-in-Progress. Specifically, the controls should ensure that the ending
balance:

         1. Includes all current ships under construction.
         2. Excludes ships no longer under construction.
         3. Includes all payments that should be capitalized.


*
    Mathematical differences are due to rounding.


                                             18
Management Comments Required
The Acting Deputy Director, Acquisition Resources and Analysis for Property and
Equipment Policy and the Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not provide comments on the
draft report. We request that they provide comments on the final report.




                                           19
20
Appendix. Scope and Methodology
We conducted this financial audit from March 2008 through January 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed the Navy’s financial statements as of March 31, 2008. We performed a
review of shipbuilding payments prior to March 31, 2008, to determine what account the
payments were posted to on the financial statements. We reviewed the Federal
accounting standards to determine where the shipbuilding contract financing payments
should be posted. We also reviewed guidance provided by the OUSD(C)/DoD CFO to
determine whether the guidance was in compliance with Federal accounting standards.

We obtained a list of ships under construction as of March 31, 2008, from the Naval
Vessel Registry, as well as from conversations with members of program offices. We
compared the list of ships reported by the P&EPO to our list of ships under construction.

We reviewed the Navy’s process for entering FACs into the CAMS-ME and using those
FACs to obtain records from the Navy’s Cash History On-Line Operator Search Engine
(CHOOSE). In order to test the accuracy of the FACs entered into CAMS-ME, we
compared FACs provided by the P&EPO to the FACs used on payments taken from
CHOOSE.

We tested the accuracy of the P&EPO’s ending CIP balance by duplicating its process of
using FACs entered into CAMS-ME to pull payment information from Navy’s CHOOSE.
We compared the ending CIP balance reported by the P&EPO to the ending CIP balance
determined using its methodology.

We obtained payments for the ships under construction from Navy’s CHOOSE to
determine the possible CIP balance the P&EPO could have reported. We used payments
made on the auditor’s prime contract universe and added payments on non-prime
contracts to determine the potential ending CIP balance. We had to remove payments on
six ships that were included on our list but were not included on P&EPO’s list of ships
under construction.

We did not review all non-prime contracts and did not review all modifications on the
prime contract to ensure that all payments made on those contracts should be included in
the ending value of the ship. Because of limited testing we are uncertain that all non-
prime contracts contain payments that can be capitalized and not expensed.

Use of Computer-Processed Data
We relied on computer-processed data contained in CHOOSE. We assessed the
reliability of the data and found that the data is sufficiently reliable to meet the audit
objectives. We did not test the CAMS-ME or BEIS systems but found through testing
the processes that the data were unreliable. We did not rely on data from either system.
We used data from the Defense Departmental Reporting System (DDRS) for background
purposes and did not rely on the data for audit results. We did not perform any testing on
DDRS.


                                           21
Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) has
issued three reports discussing contract financing and one report on the Navy Military
Equipment valuation. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2009-008, “Internal Controls Over the Department of the Navy
Military Equipment Baseline Valuation Effort,” October 31, 2008

DoD IG Report No. D-2008-042, “Reporting of Contract Financing Interim Payments on
the DoD Financial Statements,” January 31, 2008

DoD IG Report No. D-2006-050, “Accuracy of Navy Contract Financing Amounts,”
February 13, 2006

DoD IG Report No. D-2005-062, “Recording and Accounting for DoD Contract
Financing Payments,” May 10, 2005




                                           22
Office of the Under Secretary of Defense (Comptroller)
(OUSD(C)) Comments




                    Click to add JPEG file




                                   23
Click to add JPEG file




               24
Click to add JPEG file




               25
26
